                        Limited Official Use




         Additional Actions Are Necessary to Control
            Abuse of the Disabled Access Credit

                           June 2004

               Reference Number: 2004-30-118




The Treasury Inspector General for Tax Administration
(TIGTA) has designated this audit report as Limited Official
Use (LOU) pursuant to Chapter III, Section 2 of the Treasury
Security Manual (TD P 71-10) entitled, “Limited Official Use
Information and Other Legends.” Because this document
has been designated LOU, it may only be made available to
those officials that have a need to know the information
contained within this report in the performance of their
official duties. This report must be safeguarded and
protected from unauthorized disclosure; therefore, all
requests for disclosure of this report must be referred to
the Disclosure Section within the TIGTA’s Office of Chief
Counsel.




                        Limited Official Use
                                    Limited Official Use
                       Additional Actions Are Necessary to Control
                          Abuse of the Disabled Access Credit

                                                                                 Appendix II


                           Major Contributors to This Report

Parker F. Pearson, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Kyle R. Andersen, Acting Director
L. Jeff Anderson, Acting Audit Manager
Douglas C. Barneck, Senior Auditor
Annette Bates, Senior Auditor
Roy E. Thompson, Senior Auditor
Arlene Feskanich, Computer Specialist
Judith P. Harrald, Computer Specialist
Layne D. Powell, Computer Specialist
Ron Stuckey, Computer Specialist




                                    Limited Official Use                               Page 2
